<html>
<title> - [H.A.S.C. No. 114-14] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2016 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 114-14]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                   FISCAL YEAR 2016 BUDGET REQUEST FOR 
                           STRATEGIC FORCES

                               __________

                              HEARING HELD
                           FEBRUARY 26, 2015


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                               ____________
                               
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
94-101                     WASHINGTON : 2015                      
_______________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="086f7867486b7d7b7c606d6478266b676526">[email&#160;protected]</a>  
                                     
  
  
  
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Haney, ADM Cecil D., USN, Commander, United States Strategic 
  Command........................................................     4
McKeon, Brian P., Principal Deputy Under Secretary of Defense for 
  Policy, Department of Defense..................................     3

                                APPENDIX

Prepared Statements:

    Cooper, Hon. Jim.............................................    23
    Haney, ADM Cecil D...........................................    39
    McKeon, Brian P..............................................    25
    Rogers, Hon. Mike............................................    21

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Lamborn..................................................    67
    Mr. Larsen...................................................    67

Questions Submitted by Members Post Hearing:

    Mr. Rogers...................................................    71
          FISCAL YEAR 2016 BUDGET REQUEST FOR STRATEGIC FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                       Washington, DC, Thursday, February 26, 2015.
    The subcommittee met, pursuant to call, at 1:31 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. I am going to call the hearing of the House 
Armed Services subcommittee to order.
    We just came back from a procedural vote. I think we have 
about an hour before we vote, so I want to go ahead and get 
started while the members may still be walking over from the 
chamber so that we can get as much done as possible.
    This is our first hearing of the 114th Congress, and I 
would like to welcome back our returning members, especially 
the distinguished gentleman from Tennessee, my buddy, Mr. 
Cooper. I look forward to another Congress working with you and 
solve some of the most technically demanding and most important 
issues that the Armed Services Committee has to handle.
    I welcome our new members here today as well. I won't go 
name by name, but I look forward to working with each of you as 
well.
    We have got some important issues to address this year. We 
have a budget request from the President that in some ways is 
among the best we have seen since he came into office, but the 
Presidents request and the Congress makes the decisions, so we 
will see how it comes out.
    To make the best decisions possible, we need to hear from 
the best minds available. No pressure, fellows. We certainly 
have that today.
    I am pleased to kick off our NDAA [National Defense 
Authorization Act] process for the fiscal year 2016 with two 
witnesses who have responsibilities for each of the key facets 
of the Strategic Forces Subcommittee's jurisdiction: missile 
defense, national security nuclear weapons programs, and 
nuclear proliferation and cooperative threat reduction 
activities.
    To help us understand the policies and programs this 
subcommittee oversees and how they relate to the fiscal 2016 
authorization bill, we have the Honorable Brian McKeon, 
Principal Deputy Under Secretary of Defense Policy, Department 
of Defense; Admiral Cecil D. Haney of the U.S. Navy, Commander, 
the United States Strategic Command.
    Admiral, you are in much demand by the subcommittee. I 
appreciate you making yourself available.
    Mr. McKeon, I know you are very pleased to be returning 
here and I know you look forward to reviewing the transcript.
    I remind my colleagues that at the conclusion of this open 
hearing, we will adjourn to a classified discussion in a 
different room.
    I would also like to make sure that all the members are 
aware that we will have next Tuesday a classified session on 
next generation missile defense technology and capability.
    I do not believe that the world can afford nor can our own 
security allow U.S. power to continue to recede. If you think 
ISIL [Islamic State of Iraq and the Levant] is a threat, I 
agree with you. If you think Vladimir Putin is set on re-
creating the Soviet-like sphere of influence regardless of what 
these sovereign neighboring countries want for themselves, I 
think you are right. If you watch China literally create 
islands in the middle of other countries' territorial waters in 
the South China Sea and ask do they feel constrained by 
anything, I would tell you, I think the answer is no.
    So the question becomes, what are we going to do about it? 
Are we going to provide less funding for the Department of 
Defense than the President requested, which has already 
sustained literally hundreds of billions of dollars in cuts? I 
don't believe that that is an option that the Congress can 
seriously consider.
    I hope the witnesses will make very clear today what they 
see as the impacts of a return to sequestration in fiscal year 
2016 or a budget that funds only the Budget Control Act [BCA] 
caps.
    With that, I yield for a statement to my friend and 
colleague from Tennessee, Mr. Cooper.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 21.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. Thank you, Mr. Chairman. I look forward to 
working with you again in this session of Congress.
    I completely agree with you on the need to end 
sequestration, but I hope that the majority and the minority 
will be able to come with a plan to do that, because right now 
we are running on empty.
    I would--in order to save time, and look forward to the 
classified session, insert my statement for the record.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 23.]
    Mr. Rogers. I thank the gentleman.
    Mr. McKeon, Admiral Haney, you both have provided prepared 
statements, which I will add to today's record. Without 
objection, so ordered. And I ask you to briefly summarize those 
statements in 3 minutes or less so that we can turn to 
questions.
    And we will start with Mr. McKeon, if you would proceed.

STATEMENT OF BRIAN P. McKEON, PRINCIPAL DEPUTY UNDER SECRETARY 
          OF DEFENSE FOR POLICY, DEPARTMENT OF DEFENSE

    Mr. McKeon. Thank you very much, Mr. Chairman, Ranking 
Member Cooper, and other members of the subcommittee for this 
opportunity to testify today.
    In his speech in 2009 in Prague, President Obama 
highlighted 21st century nuclear dangers and declared that the 
United States will seek the peace and security of a world 
without nuclear weapons, but while we work toward that goal, 
which he acknowledged would not be reached quickly, he pledged 
that as long as nuclear weapons exist, the United States will 
maintain a safe, secure, and effective nuclear arsenal, both to 
deter potential adversaries and to assure U.S. allies and other 
security partners that they can count on America's security 
commitments.
    In his confirmation proceedings, Secretary Carter affirmed 
the view that nuclear deterrent remains our highest priority 
mission and, as such, nuclear weapons policy and strategy are 
an important element of our budget request. The request focuses 
on maintaining stable and robust deterrence in a time of 
geopolitical uncertainty, while managing the transition from 
our current nuclear force to a modernized nuclear force. We 
will manage this transition through life extension programs for 
the warheads, replacing aging delivery systems, and 
enhancements to sustainment and operations of the current 
force. It also includes the funding necessary to address the 
findings of last year's nuclear enterprise reviews.
    Last November and December, we briefed the committee and 
your staff on the results of the two reviews ordered by then 
Secretary Hagel of the DOD [Department of Defense] nuclear 
enterprise. As we said then, the Department has undertaken a 
serious and vigorous response to the findings of these reviews. 
Senior leaders are being held accountable for addressing the 
issues identified in the reviews and we are working to create 
an enduring system of continuous self-evaluation, honest 
reporting of problems, and detailed monitoring of corrective 
actions and their effectiveness in fixing the problems.
    Secretary Hagel created what he called a Nuclear Deterrent 
Enterprise Review Group to reinforce senior leader 
accountability and asked the deputy secretary to lead the 
effort. In his final weeks in the Department, Secretary Hagel 
convened the group for one last time to reinforce the 
importance of this undertaking. Secretary Carter shares 
Secretary Hagel's commitment to holding leaders of DOD 
accountable and to ensuring the real near-term improvements in 
the nuclear force sustainment and morale.
    The President has opted for a nuclear sustainment and 
modernization plan that is consistent with his commitment to 
retain a safe, secure, and effective deterrent for as long as 
nuclear weapons exist. As I said, the plan focuses on 
modernizing platforms, delivery systems, and weapons of our 
current triad to preserve military capabilities in the face of 
evolving threats.
    It is not, as some have claimed, a nuclear weapons buildup. 
On the contrary, the number of nuclear weapons in the United 
States is the smallest it has been since the Eisenhower 
administration and will continue to go down as we reach new 
START [Strategic Arms Reduction Treaty] limits. Further, our 
approach to warhead sustainment and modernization will enable 
additional reductions in the non-deployed hedge force.
    The effort to modernize our delivery systems and extend the 
life of our warheads across the triad in our non-strategic 
nuclear force will require significant resources over the next 
decade and beyond, but as I noted at the outset, their nuclear 
mission is the highest priority of the Department and we must 
prioritize it accordingly.
    Mr. Chairman, members of the committee, we would ask your 
support for the President's budget in this area, because it 
protects vital U.S. interests.
    Thank you very much for the opportunity to be here.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 25.]
    Mr. Rogers. I thank you, Mr. McKeon.
    Admiral Haney, the floor is yours.

STATEMENT OF ADM CECIL D. HANEY, USN, COMMANDER, UNITED STATES 
                       STRATEGIC COMMAND

    Admiral Haney. Good afternoon, Chairman Rogers, Ranking 
Member Cooper, and members of the committee.
    U.S. Strategic Command executes a diverse set of global 
responsibilities that contribute directly to our national 
security, and I can say with full confidence today that 
Strategic Command remains capable and ready to meet our 
assigned missions, and our strategic nuclear forces are safe, 
secure and effective. As you know, the current global security 
environment is more complex, dynamic and uncertain than at any 
time in our history as state and non-state actors challenge our 
democratic values and our security in so many ways.
    The nature of strategic threats, weapons of mass 
destruction, space and cyberspace, requires serious attention. 
We continue to see emerging capabilities to include, but are 
not limited to, the modernization of strategic nuclear 
capabilities, counterspace and cyberspace activities, 
conventional and asymmetric threats, and disturbing trends 
upsetting the strategic balance, giving rise for concern not 
only for U.S. Strategic Command, but for my fellow combatant 
commanders that we team with around the globe.
    Given all of this, including your description of the 
strategic and security environment, the missions of U.S. 
Strategic Command remain important to our joint military 
forces, our Nation, and our allies and partners.
    We remain focused on deterring strategic attack, and 
assuring allies by providing combat support to our joint 
military forces and other combatant commanders across the 
spectrum of their operations to support national security and 
strategic stability.
    Strategic deterrence today is far more than just nuclear, 
although it is underpinned first and foremost by our nuclear 
capabilities. It includes a robust intelligence apparatus, 
space, cyberspace, conventional and missile defense 
capabilities, and comprehensive plans that link organizations 
and knit their capabilities together in a coherent way.
    Additionally, we are engaged daily in a broad range of 
activities across our other mission areas: space; cyberspace; 
intelligence, surveillance, and reconnaissance [ISR]; 
commanding weapons of mass destruction; joint electronic 
warfare; global strike; and analysis and targeting. These 
efforts guide my six command priorities: deterrence; strategic 
attack; providing our Nation with a safe, secure and effective 
nuclear deterrent force; building enduring relationships with 
partner organizations to confront the broad range of global 
challenges; addressing these challenges in space, building our 
cyberspace capability and capacity; and anticipating change and 
confronting uncertainty with agility and innovation.
    Achieving strategic deterrence in the 21st century requires 
continued investment in strategic capabilities and renewed 
multi-generational commitment of intellectual capital.
    The President's budget for 2016 strikes a responsible 
balance between national priorities, fiscal realities, and 
begins to reduce some of the risks we have accumulated because 
of deferred maintenance and sustainment. This budget supports 
my mission requirements, but there is no margin to absorb new 
risks. Any cuts to that budget, including those imposed by 
sequestration, will hamper our ability to sustain and modernize 
our military forces.
    None of this work could be done, of course, without our 
well-trained and motivated people, and I can personally attest 
to their talent, dedication, and professionalism of the team of 
military and civilian experts that man our forces. They 
represent our most precious resource and deserve our unwavering 
support.
    In these uncertain times, I am proud to lead such a focused 
team, and we are building our future on a strong and successful 
past. And we count on your support, of course, in working 
together with those men and women so that we can ensure that we 
are ready with a safe, secure, and effective strategic 
deterrent.
    Thank you. I look forward to your questions.
    [The prepared statement of Admiral Haney can be found in 
the Appendix on page 39.]
    Mr. Rogers. I thank you, Admiral Haney.
    And I recognize myself now for the first round of 
questions. And this is for you, Admiral Haney.
    As recently stated by the director of the Defense 
Intelligence Agency at a HASC [House Armed Services Committee] 
hearing on worldwide threats, quote, ``the threat to U.S. space 
systems and services will increase as potential adversaries 
pursue disruptive and destructive counterspace capabilities,'' 
close quote.
    Can you provide your perspective on the threat to our space 
systems, and what are you doing about it, and are we properly 
organized in this--in space for our warfighting domain?
    Admiral Haney. Chairman, yes, this is an important topic to 
me, as we have seen very disturbing trends in space from 
particular nation-states like China as well as Russia, who have 
been public about their counterspace endeavors and ambitions. 
We have seen direct-ascent, anti-satellite, kill vehicles 
launched just as most recently in last summer from China. 
Fortunately, this time it didn't hit anything, as it did in 
2007, creating just thousands and thousands of pieces of 
debris, which we are still struggling with, but it shows this 
intent of their investments that they are not very transparent 
in sharing their intent with us.
    Additionally, we see things that they have also put in 
orbit that also is of concern, as well as things on land that 
are also being used to threaten our assets, such as lasers, 
such as jamming capability and what have you that threatens 
communications, GPS [Global Positioning System].
    With all that, you will find in this President's budget a 
plan to invest to provide us more capability for command and 
control. We must be able to get better at space situational 
awareness. There are some investments in that regard, and also 
space control. And these investments, including the ability to 
be more resilient with our capabilities in space, is what we 
aim to get to.
    Mr. Rogers. Great. Would you say that Russia--or I am 
asking. Is Russia, China, Pakistan, are they all building new 
nuclear weapons with new military capabilities?
    Admiral Haney. Yes, Chairman, they are.
    Mr. Rogers. Great.
    Mr. McKeon, who is following the U.S. lead in terms of not 
building new nuclear weapons?
    Mr. McKeon. Well, there are a lot of countries in the world 
who don't have nuclear weapons that are not seeking them, sir, 
but----
    Mr. Rogers. Anybody that does have them that is following 
our lead in not building more? You just heard me mention three.
    Mr. McKeon. I did, but there is probably at least one. I am 
not sure of the answer to, and probably wouldn't want to say it 
here in this setting.
    Mr. Rogers. With that, I will yield to the ranking member 
for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    I am worried that the greatest risk to our nuclear defenses 
is not at the witness table, and they are fine organizations, 
but it is on this side, because it is my understanding, and I 
am glad that a number of our colleagues are here on both sides 
of the aisle, it is my understanding that the budget for this 
Congress will be marked up to sequestration levels.
    And it is also my understanding that when we do our markup 
for the NDAA, that that will be at sequestration levels, which 
means, in plain English, when the admiral testified that the 
President's budget was sufficient, but probably barely, and 
anything below that is trouble, we will be marking up the NDAA 
at a level $35 billion below the President's budget. That is 
just unacceptable.
    And this committee has a great tradition of bipartisanship, 
people working together for strong defense for America. We have 
got to solve this problem. We really don't have a lot of time 
to do it. I don't want to upset, you know, leadership in either 
party, but this is the national defense we are talking about, 
and there has got to be an answer before we mark up, so that we 
don't mark up to artificially and cruelly and devastatingly 
inadequate numbers. So somehow or another, I think that has got 
to be the top priority for this subcommittee.
    It is not our jurisdiction, it is really no one's 
jurisdiction; it is everyone's jurisdiction on the committee 
that cares about a strong national defense. So I am not blaming 
anyone, but this is a very curious situation. I cannot remember 
a markup environment like this where we will be going in where 
we will be deliberately below the President's number.
    So hopefully there will be a solution. I don't have one 
right now, but I feel great urgency in trying to help us and 
our colleagues try to find one. One way to do it would be to 
find pay-fors that are within our jurisdiction. It is easy to 
try to get another committee to pay for stuff, but that would 
be ruled out of order automatically, so we are going to have to 
find, you know, monies within our own jurisdiction. How do we 
do that? There are only a few areas to go to, and none of those 
are popular. So we have really got a lot of work to do just in 
the next month or two, otherwise, there is a big train wreck 
coming.
    So I appreciate the witnesses being here. I look forward to 
questioning you in the closed session, but the real work has to 
be done by the folks on this side of the table, I think.
    Thank you, Mr. Chairman.
    Mr. Rogers. Yeah. I want to associate myself with the 
ranking member's remarks. Marking up to the BCA levels is not a 
responsible thing to do, and I am going to do everything in my 
power to keep us from having to do that. And I also think that 
the President's number is much more responsible and the minimum 
that we should be thinking about.
    With that, the chair now recognizes the gentleman from 
Louisiana, Mr. Fleming, for 5 minutes.
    Dr. Fleming. Thank you, Mr. Chairman. And I want to thank 
the panel. And it is great to see you again, General Haney.
    You know, there has been talk over time over the last 6 or 
7 years I have been in Congress that we go from a nuclear triad 
to a diad, and most recently that discussion came up in Senate 
testimony when retired Marine General James Mattis recommended 
to the Senate Armed Services Committee the notion that moving 
away from a triad of nuclear forces, that is, from ballistic 
missiles--excuse me--ballistic missiles, submarines, bombers 
and land-based ballistic missiles to a diad of submarines and 
bombers. And so I would love to get your perspective on that, 
Admiral?
    Admiral Haney. Congressman Fleming, thank you for the 
question. There have been--I know when we went through the 
Nuclear Posture Review in 2010 all the way through the 
Quadrennial Defense Review for 2014, a lot of work that is 
ongoing to continue to validate the need for the United States 
of America to have a triad, and I fully support that.
    The responsiveness of our intercontinental ballistic 
missile force, the survivability nature of our submarines, and 
the flexibility of our bombers is exactly what we need our 
adversaries to have to contemplate if they decide they want to 
escalate their way out of a conflict. Thank you.
    Dr. Fleming. And so we want to make it as complex of an 
equation as possible. But did I call you ``General''? I am 
sorry. Did I--he just put your name in front of me and I wasn't 
sure why. I apologize if I called you ``General.'' I meant to 
say ``Admiral Haney.'' Excuse me for that.
    But in any event, we want to make it as difficult on our 
enemies as possible, do we not? We want to make it as complex 
of an equation, and at the same time, we need as--to a prior 
question and discussion, we need to have the most modernized 
weapons systems and delivery systems as possible. Would you 
agree with that, Admiral?
    Admiral Haney. Congressman Fleming, yes, I would agree with 
it. Given the existential threat and the nature of the threat, 
very important for the United States.
    Dr. Fleming. Please describe the modernization and 
sustainment challenge of our current bomber fleet. What is your 
view of the President's request regarding the modernization 
programs, the new long-range strike family of systems, and how 
those timelines are being tackled for the fleet aging out and 
for when the new bomber comes online?
    Admiral Haney. Congressman, our air lag is supported today 
by the B-2 and the B-52 aircraft. The B-52, which was last off 
the assembly line in 1962, will be used out at least until the 
2040 time period, so it is very important that we invest in a 
long-range bomber. We have also had multiple decades of 
utilization of our B-2 aircraft, and as a result, in order to 
have the strategic and conventional capability those platforms 
provide from a global strike nature and to our joint military 
forces, it is important that we re-capitalize and move forward 
as the Air Force is investing in the long-range bomber.
    Dr. Fleming. So even at this point where we are trying to 
get the long-range strike bomber up and going, in development 
and eventually on the assembly line, we are looking at current 
weapons system bombers that will be nearly a century old when 
they are retired, certainly 80, 90 years old, and they will be 
flown by great-grandsons and daughters, maybe even great-great-
grandsons and daughters, when they are finally retired.
    Admiral Haney. That's correct, Congressman.
    Dr. Fleming. Yeah. Thank you.
    I yield back.
    Mr. Rogers. Thank the gentleman.
    The chair now recognizes the gentleman from California, Mr. 
Garamendi, for 5 minutes.
    Mr. Garamendi. Thank you very much, gentlemen, for your 
service and for being here today, and Mr. Chairman, for calling 
the meeting.
    I am going to follow up on the questions that Mr. Fleming 
raised and stay with it.
    The purpose of the long-range bomber is precisely what, 
Admiral?
    Admiral Haney. Congressman, our long-range bomber today 
provides the flexibility to provide adequate capability to our 
joint military forces from the air, both conventional as well 
as strategic nuclear capability, as part of our nuclear 
strategic deterrent today.
    Mr. Garamendi. So it would be designed to penetrate enemy 
airspace?
    Admiral Haney. The capability is designed to penetrate 
enemy airspace. Our B-2's in particular with their stealth 
capability and our B-52's with their long-range strike 
capability.
    Mr. Garamendi. And the long-range standoff cruise missile, 
what is its purpose?
    Admiral Haney. Today we have the air-launched cruise 
missile that is capable to be carried on our B-52 aircraft. Its 
purpose is to provide that flexible option to our national 
security apparatus, the President, in order to allow another 
avenue in which, if we were in extreme circumstances, to be 
able to have that capability. It is also designed as a 
deterrent mechanism first and foremost such that any adversary 
that would want to challenge us would have to consider----
    Mr. Garamendi. Excuse me.
    Admiral Haney [continuing]. That avenue.
    Mr. Garamendi. I don't want to get mixed up. We have got 
the current missile and the new long-range standoff missile.
    Admiral Haney. That is----
    Mr. Garamendi. I am not sure which one of the two you were 
speaking to? My----
    Admiral Haney. Well, the air-launched cruise missile is 
what we have today.
    Mr. Garamendi. Right. Exactly.
    Admiral Haney. The air-launched missile will time-out here 
in between 2020 and 2030. It has been under various life 
extension programs and what have you there. The long-range 
strike option cruise missile is its replacement.
    Mr. Garamendi. So it would also be air-launched?
    Admiral Haney. That is correct.
    Mr. Garamendi. And its purpose is to penetrate enemy 
airspace and deliver nuclear weapons as well as conventional 
weapons?
    Admiral Haney. Nuclear weapons.
    Mr. Garamendi. Nuclear weapons only, as is the current air-
launched missile, correct?
    Admiral Haney. That is correct.
    Mr. Garamendi. So do we need both the long-range bomber and 
the long-range strike missile to deliver a nuclear weapon?
    Admiral Haney. Congressman, the air-launched cruise missile 
that we currently have will expire, and we need a replacement 
for it, and that is why we need the air--the long-range strike 
option.
    Mr. Garamendi. I understand that, you said it clearly, but 
my question goes to do we need a long-range bomber to deliver a 
nuclear weapon into enemy airspace as well as the new long-
range missile? Do we need both----
    Admiral Haney. Yes.
    Mr. Garamendi [continuing]. For that purpose of delivering 
a nuclear weapon?
    Admiral Haney. We need both.
    Mr. Garamendi. In a classified hearing, I'd like to have an 
answer to three letters: Why?
    Admiral Haney. I would be happy to discuss it.
    Mr. Garamendi. Thank you.
    I yield back.
    Mr. Rogers. Thank the gentleman.
    Chair now recognizes the gentleman from Colorado, Mr. 
Coffman, for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    I just want to continue the point a little bit about the 
next generation bomber. And, you know, given--again, given the 
advances in precision-guided munitions and cruise missiles and 
other capabilities of striking targets, again, can you tell me 
why it is important to have a next generation manned bomber?
    Admiral Haney. Congressman, one, as our current capability 
is getting older and mature, we will need something to replace 
it for decades to come.
    Second of all, our adversaries are getting more and more 
capability in anti-access and access denial kinds of 
capabilities, and I think it is important from a deterrence as 
well as from an offensive standpoint, being that these bombers 
are both strategic-capable, to be strategic-capable as well as 
conventional-capable to provide that kind of calculus that any 
adversary would have to think about in challenging our 
democratic values.
    Mr. Coffman. Thank you, Mr. Chairman.
    I yield back.
    Mr. Rogers. Thank the gentleman.
    Chair now recognizes the gentleman from Washington State, 
Mr. Larsen, for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman.
    Admiral, I have got a September 22 letter that was to the 
committee regarding some issues with regards to costs of the 
capitalization of strategic arsenal, and it says in your 
letter, ``our planned capitalization activities will require 
close to 10 percent of the DOD budget for a period of time, but 
the cost of losing a credible deterrent capability would likely 
be much greater, not only in dollars,'' and so on.
    Ten percent of the DOD budget obviously over any period of 
time is a lot, because a lot of folks are asking for 10 percent 
of the DOD budget in the DOD. So the question I have is, how do 
you--how are you thinking about--how are we thinking about 
planning for that amount of money, for the planned 
recapitalization?
    Admiral Haney. Congressman Larsen, first I should state, 
you know, that was less than 10 percent, as you articulated. 
And as I look at some of the Congressional Budget Office work 
that is ongoing more specifically as it looks over a period 
of--in the 2020 to 2030s when we would have to recapitalize the 
bulk of our strategic forces, it's really in the order of 5 to 
6 percent.
    Mr. Larsen. And what is it now?
    Admiral Haney. Today it is less than 3 percent, somewhere 
in the order of 2.6.
    Mr. Larsen. Sure. Okay. So it is a doubling?
    Admiral Haney. Thereabouts, yes, sir.
    Mr. Larsen. Yeah. Three to six. Two and a half to five is a 
doubling. And so the plan, then--you and I may not be here 
then, but how are we thinking about the competition for dollars 
in the DOD budget to achieve that?
    Admiral Haney. Well, the competition, I think, is what has 
to play itself out, quite frankly, as my recommendation to the 
Department, and I think it has been echoed through 2014 and 
then some, relative to the importance of our strategic nuclear 
capability, a time and place where others have modernized their 
capability that provide an existential threat to the United 
States of America.
    So in order to maintain and sustain strategic stability, it 
is very important that we have that kind of balance. And when 
you look at over time, even the 2.6 percent, that we are able 
to take technology that was designed and built for the most 
part in the 1960s and 1970s, and the life span we've been able 
to have on what we have today, everything from Ohio-class SSBNs 
[ballistic missile nuclear submarines], designed for 33 years, 
and we are getting 42 out of it. Quite frankly, the question 
really is, can we afford not to.
    Mr. Larsen. That is the question we have to ask for every 
budget item that comes to us, and we don't have the money for 
all that, so--can you--I don't know if it's Admiral or Mr. 
McKeon, if you can--which one is best to answer this. Recently 
at the NATO [North Atlantic Treaty Organization] parliamentary 
assembly a couple weeks back, they had a discussion about 
hybrid warfare, it is nothing new, but it is being talked about 
with relation to how Russia is approaching Ukraine and other 
areas. Part of that is cyber operations.
    And I wanted to--I don't know which one to ask. What kind 
of investment are we making in cyber operations to sort of 
perhaps fill the gap that the West has or even the United 
States has to play on that playing field as opposed to the 
other activities that we are doing with overflights and such?
    Mr. McKeon. In terms of cyber, Admiral Haney may be best 
placed to answer since the Cyber Command is a subcommand under 
his command.
    Mr. Larsen. Right.
    Mr. McKeon. I can say we are investing a lot in cyber 
mission forces for cyber defense activities in the Department, 
and a total force of around 6,000 people we are projecting 
toward, but I don't know the dollar figure off the top of my 
head.
    Admiral Haney. Congressman Larsen, I will have to provide 
you that answer in writing. I don't have it on the top of my 
head. I know the investment in terms of the number of people 
that was already articulated.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mr. Larsen. Yeah. So when you do that, I would like the 
numbers of people and dollars is great, also the use, how it's 
perhaps either filling a gap or enhancing what we are already 
doing, especially as it's being coordinated with other elements 
of our ability to act?
    Admiral Haney. Congressman, we are building these cyber 
teams, cyber mission forces, cyber protection teams in order 
to, one, protect ourselves from cyber attacks. We are being 
probed on a daily basis by a variety of different actors.
    Mr. Larsen. The protection side is one thing. What about 
the other side?
    Admiral Haney. The other aspect of it, we are distributing 
these forces out to the various combatant commands so that they 
can be integrated into our overall joint military force 
capability.
    Mr. Larsen. Yeah. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    Chair now recognizes the gentleman from Alabama, Mr. 
Brooks, for 5 minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    Mr. McKeon and Admiral Haney, when you think about key 
emerging technologies of strategic importance, would you put 
conventional prompt global strike hypersonic on that list, and 
if so, where?
    Mr. McKeon. I am not sure how I would rank it, sir. It's an 
important technology we are trying to develop, as you know.
    Mr. Brooks. Admiral.
    Admiral Haney. I would agree. I would not be prepared to 
rank it, other than to say it's important that we continue the 
R&D [research and development] efforts so we can understand it 
and then be able to provide it as a part of our arsenal.
    Mr. Brooks. When it comes to hypersonic technology and 
systems development, where would you say the United States is 
with regard to our allies and adversaries? Ahead, behind, about 
even? How would you characterize it, the progress we are making 
versus the progress some of our geopolitical foes are making?
    Mr. McKeon. Congressman, I think we would have to get you a 
better answer in the IC's [Intelligence Community's] assessment 
of this. I am not sure I would say we were ahead, but I 
wouldn't say that we are significantly behind, but I am not 
schooled on the analysis on that.
    Mr. Brooks. Admiral.
    Admiral Haney. I would agree. And the only thing I would 
add is in 2013, we had a successful flight and we have had a 
lot of good indicators of where we are with the associated 
program.
    Mr. Brooks. Based on your knowledge of ongoing development 
activities of the last decade within the Air Force, DARPA 
[Defense Advanced Research Projects Agency], Navy and Army, how 
would you characterize the current state of conventional prompt 
global strike hypersonic development? Is it progressing as you 
would like to see? Should we put more funding into it, less 
funding into it, or about the same levels?
    Mr. McKeon. Sir, as you know, in the last year, we've had 
an unsuccessful test of the program. I think--we've had some 
conversations about this recently in the Department. I was in a 
meeting with the deputy secretary and Mr. Kendall not too long 
ago where we talked about this, and the deputy was pressing us 
on essentially the question you just asked us, and I think we 
came to the conclusion we have it at about the right level 
right now in terms of the research and development.
    Mr. Brooks. Admiral, is there anything that you would like 
to add? Should we be pressing harder for development, or about 
the same pace, or slower?
    Admiral Haney. I right now think we are in a good spot in 
where we are right now in terms of our investments with 
conventional prompt global strike.
    Mr. Brooks. Thank you for your service.
    Mr. Chairman, I yield back.
    Mr. Rogers. The chair now recognizes the gentleman from 
Arizona, Mr. Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank you both for being here.
    Admiral, thank you for your service to the country. Always 
appreciate your acumen and commitment, and glad it is on our 
side. My first question is for you, sir.
    The budget for missile defense has been slashed by about $7 
billion as compared to projected levels from fiscal year 2009 
and it continues on a fairly sharp downward slope, and this is 
in the face of a growing ballistic missile threat to the U.S. 
and our allies at a pace we really haven't seen before. So I 
guess the obvious question I ask you, sir, is are you concerned 
about this trend, and your best military advice, should that 
trend continue?
    Admiral Haney. Congressman, I think when you look at the 
whole, we have made some good--great strides of recent here 
relative to missile defense: one, the European Phased Adaptive 
Approach is on track with the phases we have there, the Ground-
Based Interceptor [GBI] program, we have investments in the 
sensor discrimination kill vehicle, and those things, which I 
think are very important as we go forward to be able to get the 
missile defense program where we want it to be for not just 
now, but into the future.
    Mr. Franks. Well, I certainly would applaud the way that 
the military has handled resources that they have had. My 
question was more in line with the budget. Do you think that 
the decreased budget for missile defense is wise from the 
military perspective?
    Admiral Haney. Congressman, from the military perspective 
and just looking at from my career to where I am now relative 
to the kinds of capabilities we have, I would like to see more 
confidence in our various systems, particularly for the kill 
vehicle performance. I know there is some work going on by 
Missile Defense Agency associated with that and investments 
associated with it as well.
    So I couldn't come here and tell you I need another dime in 
this particular area. I think what we have in the President's 
budget is about the right balance.
    Mr. Franks. So quickly, then, two points related to the 
phased adaptive approach. You know, leaving the last phase, now 
having cancelled that, where does that leave us in terms of any 
sort of redundant homeland protection from potential ICBMs 
[intercontinental ballistic missiles] in the future from a 
country like Iran?
    Admiral Haney. Well, the missile defense capability is a 
layered capability, includes the European Phased Adaptive 
Approach, our Aegis ships, our ground based indicators, our 
THAAD [Terminal High Altitude Area Defense] programs, et 
cetera, all in an integrated fashion, and ultimately I would 
say our offensive capability as a whole as a joint military 
force is part of that. So----
    Mr. Franks. Admiral, my question was--my question, sir, was 
with the loss of that last phase, have we not eliminated 
redundant protection for the homeland of the United States as 
opposed to the original plan?
    Admiral Haney. Congressman, I believe with what we have 
today planned for missile defense is adequate in terms of our 
investment while we have research and development into other 
areas, as issue of homeland defense.
    Mr. Franks. All right. Well, Mr. McKeon, I--thank you, sir. 
Why is it the policy of this administration not to keep pace 
with the threats, and they continue to reduce our ballistic 
missile defense budget? It seems--you know, I understand the 
admiral has given some very good answers, but I am not sure we 
are really addressing the question I am asking, is, in the face 
of increasing ballistic missile threats, increasing missile 
threats, why is the budget falling to the extent that it is? Is 
this just a policy conclusion of the administration?
    Mr. McKeon. Congressman Franks, I would say a couple of 
things. Some of the reductions that we have already taken over 
the course of the life of the administration, we are cancelling 
some development programs that had various risk and 
unacceptable costs and schedule problems. A few of these were 
cancelled by Secretary Gates in the first year, such as 
airborne laser.
    Overall, we have a tough budget environment, which you 
gentlemen know very well, and missile defense has not been 
exempted from this. So we do occasionally have to make some 
tough choices. Priorities in the budget now are increasing the 
number of GBIs from 30 to 44, focusing on improving the kill 
vehicle and the long-range discrimination radar. We think we 
have the forces right now to deal with the current and 
projected threat.
    Mr. Franks. Well, Mr. McKeon, I hope you are correct. One 
thing is certain: the original missile defense plan, the third 
site did give redundant protection of the homeland. It does not 
now, nor is it anticipated to do so in the future. And being 
the father of 6-year-old twins, I take that a little 
personally.
    And with that, Mr. Chairman, I had yield back.
    Mr. Rogers. I thank the gentleman. The chair now recognizes 
the gentleman from Colorado, Mr. Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman, and thank you for 
having this hearing.
    Admiral Haney, thank you for our earlier conversation and 
for being here and for your service. We earlier touched on, but 
I would like to explore in a little more detail, the fact that 
we are going to be purchasing weather information from China 
and Russia for weather over the Indian Ocean, including some 
CENTCOM [U.S. Central Command] areas like Afghanistan. Do you 
have any concerns about purchasing potentially sensitive 
information that would go to our warfighters from China or 
Russia?
    Admiral Haney. Congressman, thank you for that question. As 
we look to the future, I have concerns that we have enough 
diversity in our capability so that we are not dependent on one 
particular country that may not be there to support us in the 
future, and I think we have to be very careful with that. So 
I'm supportive of the efforts that are ongoing now, 
particularly in the weather, which we depend upon, all the 
combatant commanders depend upon for our maneuverability and 
capabilities. And I know there is some work ongoing here 
relative to U.S. weather satellite capability.
    Mr. Lamborn. Do you know what the dollar amount is that DOD 
is asking for in the President's budget for that purchase?
    Admiral Haney. I do not. I will have to--I am not sure if 
you are aware.
    Mr. Lamborn. Mr. McKeon, would you happen to know that?
    Mr. McKeon. Sir, I don't know the dollar figure. The 
defense meteorological satellite program, the last satellite is 
funded and it's expected to launch, I believe next year, and it 
is fully funded and I don't think we have any problems with it. 
Well, there may be some final numbers in the 2016 budget, so I 
have to confirm that with you.
    There is a follow-on program we are working on, it's not a 
program of record yet, that would come online in the early 
2020s, so we don't expect there to be a gap. I am not familiar 
with anybody planning to depend on the Chinese or Russians.
    Mr. Lamborn. Okay. Well, we will have to dig a little 
further into that. Maybe I could follow up with a question for 
the record?
    Mr. McKeon. Certainly.
    Mr. Lamborn. And lastly, Admiral Haney, we talked some 
about New START Treaty, and I have real concerns about it. I 
think it has many flaws, one of which is the fact that Russian 
tactical nuclear weapons were not included in the treaty at 
all. What concerns do you have about tactical capabilities in 
the nuclear weapon field for Russia?
    Admiral Haney. Well, I have concerns that Russia has a 
number of non-strategic nuclear weapons in their arsenal and 
they also have modernization programs associated with them, as 
well as I am concerned about their violation of the INF 
[Intermediate-Range Nuclear Forces] treaty with a ground-
launched cruise missile system that they have been testing.
    Mr. Lamborn. And I guess I do have a follow-up.
    I was just given some information, Mr. McKeon, and I will 
just read a key takeaway that the Air Force supplied this 
committee. DOD currently does not rely on non-allied 
international sources for environmental data, but may be 
required to do so as early as 2017 due to EUMETSAT [European 
Organization for the Exploitation of Meteorological 
Satellites], E-U-M-E-T-S-A-T's recent decision not to replace 
Meteosat-7.
    Mr. McKeon. Congressman Lamborn, I am not an expert on 
space, I will be the first to admit it. We have a very capable 
DASD [Deputy Assistant Secretary of Defense] for space. I spoke 
to him about this issue in the last couple of days in 
anticipation of questions in this area. I have conveyed what he 
has conveyed to you. So we will double-check whatever briefing 
from the Air Force that you have and circle back.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mr. Lamborn. Okay. Thank you, Mr. Chairman.
    I yield back.
    Mr. Rogers. I thank the gentleman.
    What we want to do now is go ahead and recess and go into 
the classified portion of the hearing at this time. They are 
saying we are going to be called for votes around 2:30, but our 
cloakroom has proved not to be very good at predicting those 
things, so I don't want to keep you all waiting around here if 
we can avoid it.
    So we are now standing in recess to move into a classified 
setting.
    [Whereupon, at 2:17 p.m., the subcommittee proceeded in 
classified session.]
      
=======================================================================

                            A P P E N D I X

                           February 26, 2015

=======================================================================

 

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 26, 2015

=======================================================================

            
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 26, 2015

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. LAMBORN

    Mr. McKeon. Low-earth orbit (LEO) systems in polar orbits are 
particularly important for polar coverage and for longer-range 
forecasting. For LEO systems, the Department of Defense (DOD) has made 
the decision to launch Defense Meteorological Satellite Program Flight 
20 (DMSP-20). That decision, combined with our partners' capabilities, 
will extend our ability to meet LEO requirements until the 2025 range. 
This step provides us several additional years to determine how best to 
use DOD capabilities, such as our planned Weather System Follow-on 
program, and capabilities of civil and international partners to 
continue supporting operational requirements.
    Weather satellites in geosynchronous orbit (GEO) support 
requirements for near-real-time weather information. In GEO, we rely 
primarily on two National Oceanic and Atmospheric Administration (NOAA) 
satellites (GOES-13 and GOES-15), two EUMETSAT satellites (METEOSAT-7 
and METEOSAT-10), and one Japanese satellite (MTSAT-2/Himawari-7). 
EUMETSAT currently does not plan to replace METEOSAT-7 when it reaches 
its estimated end of lifetime in 2017. This would leave a gap in the 
area covered by this satellite, which is located at 57 degrees east 
longitude over the Indian Ocean. The United States and our partners 
maintain on-orbit back-up capabilities, such as repositioning these 
assets to this region that offer some flexibility for extending 
coverage for a few years. Work is ongoing with NOAA and our 
international partners and we will still ultimately need to determine 
an appropriate longer-term solution that will meet our requirements 
with acceptable reliability.   [See page 15.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. LARSEN
    Admiral Haney. The current planned investment for the Cyber Mission 
Force (133 teams) in the Future Years Defense Program (FYDP--FY 2014--
FY 2018) is $1.878 billion dollars for the development of approximately 
6100 individuals required in the four Service branches. This effort 
began in October of 2013 and today we have 3100 personnel assigned to 
58 of the 133 teams. My team is extremely appreciative of the support 
this committee has provided the Department and we look forward to 
continued cooperation as we help defend the nation.   [See page 11.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 26, 2015

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. Are there any allies who are not yet convinced Russia 
is violating the INF treaty? Who are they? What are we doing, country 
by country, to explain and demonstrate how we know?
    Mr. McKeon. [The information referred to is classified and retained 
in the committee files.]
    Mr. Rogers. Do you agree with Ms. Gottemoeller that Russia is 
cheating, or not in compliance, with approximate 8 out of 12 treaties 
or agreements? Please explain how the U.S. is responding to each case.
    Mr. McKeon. I agree with the answers Under Secretary Gottemoeller 
submitted in response to questions for the record posed by 
Representatives Garamendi and Turner after her December 10, 2014, 
testimony to the House Armed Services Committee. In her answers, she 
elaborated and clarified that Russia is in violation of the 
Intermediate-Range Nuclear Forces (INF) Treaty, the Conventional Armed 
Forces in Europe (CFE) Treaty, and the Budapest Memorandum. I also 
agree with her statement that verifiable arms control statements 
continue to be an important tool to enhance the security of the United 
States and its allies and partners. The Administration takes violations 
of arms control agreements very seriously. The United States is 
responding to each case of non-compliance or questions on adherence by 
Russia as follows:
    <bullet>  CFE Treaty: Russia suspended implementation of the CFE 
Treaty in 2007 and has made it clear that it will not return to 
compliance. In 2011, the United States suspended performance of certain 
obligations under the CFE Treaty with regard to Russia. We were joined 
by our NATO Allies that are party to the CFE Treaty, as well as by 
Georgia and Moldova, in taking this step. In all, 24 of the 30 
countries that are party to the CFE Treaty have suspended 
implementation of certain CFE Treaty obligations with regard to Russia.
    <bullet>  INF Treaty: The United States has determined that the 
Russian Federation is in violation of its obligations under the INF 
Treaty not to possess, produce, or flight-test a ground-launched cruise 
missile with a range capability of 500 to 5,500 km, or to possess or 
produce launchers of such missiles. The United States is finalizing a 
range of diplomatic, economic, and military response options to 
convince Russia to return to compliance with the INF Treaty and to deny 
Russia significant military advantage from deploying the missile that 
violates the INF Treaty.
    <bullet>  Budapest Memorandum: Russia is in clear violation of its 
commitments under the Memorandum to respect the independence, 
sovereignty, and existing borders of Ukraine. The United States, 
together with allies and partners, has levied extensive sanctions on 
Russia, is providing financial assistance to Ukraine, and is supporting 
allies and partners in the region through efforts such as the European 
Reassurance Initiative. NATO formed a Response Force to deter Russian 
military action against Allies.
    Mr. Rogers. As you know, nuclear modernization costs continue to be 
a topic of discussion up here. What priority does the Department of 
Defense assign to the nuclear deterrence mission? Do you believe the 
nuclear modernization plan DOD and NNSA have laid out is appropriate 
and affordable amidst the wider defense budget?
    Mr. McKeon. The President has opted for a sustainment and 
modernization program that is broad and consistent with his commitment 
to retain a safe, secure, and effective deterrent for as long as 
nuclear weapons exist. This plan focuses on modernizing the platforms, 
delivery systems, and warheads of our current Triad, including our non-
strategic nuclear forces, to credibly preserve military capabilities in 
the face of evolving threats.
    This program will require significant resources over the next 
decade and beyond, but the nuclear mission is the highest priority 
mission within the Department of Defense, and we must prioritize it 
accordingly. The President's FY 2016 budget request includes 
significantly increased investment in the nuclear Triad as well as its 
supporting infrastructure and manpower. Sequestration presents the 
greatest threat to the viability of our sustainment and modernization 
plan.
    Mr. Rogers. Why does the United States need the long-range standoff 
weapon (LRSO)--the follow-on to the current air-launched cruise missile 
(ALCM)? What is the short, elevator speech we can bring to our fellow 
Members on the floor and constituents back home--why is this capability 
important?
    Mr. McKeon. The Long-Range Stand-Off (LRSO) cruise missile will 
replace the Air-Launched Cruise Missile (ALCM) as the United States' 
only air-launched, long-range standoff nuclear capability.
    <bullet>  Sustaining the ALCM is becoming increasingly difficult, 
and its reliability in the next decade is not assured even with 
substantial investment. The ALCM's service lifetime has already been 
extended more than two decades beyond the 10 years that were originally 
planned.
    <bullet>  The LRSO will sustain the U.S. ability to credibly 
challenge the evolving anti-access/area denial (A2AD) capabilities of 
potential adversaries. These A2AD capabilities limit the survivability 
of the B-52 and will eventually threaten the ALCM's ability to continue 
its role as a penetrating platform.
    <bullet>  The penetrating LRSO cruise missile and the next-
generation penetrating strategic bomber (LRS-B) will provide 
complementary capabilities, and neither can fully substitute for the 
other. Different capabilities provide varied confidence levels of 
penetration in the evolving and layered A2AD threat environment posed 
by our potential adversaries. A penetrating bomber that can carry a 
penetrating missile maximally expands the accessible space of targets 
that can be held at risk.
    <bullet>  The LRSO is therefore important for preserving flexible 
and credible response options for the President, and hence for 
sustaining an effective deterrent against nuclear attack. Preserving 
these options also supports the President's ability in a crisis to 
signal intent and control escalation by giving the President a nuclear 
deterrent that can be recalled if it successfully controls escalation. 
These are long-standing core elements of U.S. nuclear strategy.
    <bullet>  The LRSO will provide a rapid and flexible hedge against 
changes in the strategic environment and limitations of the other two 
legs of the Triad. Under the New START Treaty, each strategic bomber 
counts as one launcher and one warhead, regardless of the number of 
nuclear cruise missiles and bombs in our inventory. This provides a 
rapid upload capability to hedge against geopolitical or technical 
surprise.
    Mr. Rogers. Is it true that the Commander of U.S. European Command 
non-concurred last year when OSD-P asked for his input on approving 
Russian Federation requests under the Open Skies treaty? Why did the 
DOD proceed anyway? Have you personally reviewed the EUCOM non-
concurrence and the strong objections from NORTHCOM and STRATCOM?
    Mr. McKeon. As I outlined to then-Chairman McKeon in my classified 
letter dated November 17, 2014, the Under Secretary of Defense for 
Policy and Chairman of the Joint Chiefs of Staff requested Combatant 
Commanders, including the Commanders of U.S. European Command, U.S. 
Northern Command, and U.S. Strategic Command, to provide information on 
the proposal to certify Russia's An-30 Open Skies Treaty aircraft. This 
information was part of the deliberative process and was used to inform 
DOD and U.S. Government decision-making. As we worked with other U.S. 
departments and agencies, we determined that the specific concerns 
would be ameliorated by some important, separate components of the 
policy, which I outlined to Chairman McKeon.
    Mr. Rogers. Russia and China are building missile defenses against 
the U.S. and its strategic forces. Why do we continue to worry about 
their concerns about our missile defenses? Why do we maintain there is 
something ``destabilizing'' about U.S. missile defenses but nothing 
about theirs?
    Mr. McKeon. We consider missile defense to be a stabilizing force. 
Both Russia and China have or are developing missile defense 
capabilities of their own and have expressed concerns that U.S. missile 
defenses adversely affect their strategic capabilities and interests; 
however, as the United States has stated in the past, our homeland 
defense capabilities are focused on regional actors such as Iran and 
North Korea and are not designed for a large-scale Russian or Chinese 
missile attack.
    Mr. Rogers. The 2010 Ballistic Missile Defense Review stated,
    ``Today, only Russia and China have the capability to conduct a 
large-scale ballistic missile attack on the territory of the United 
States, but this is very unlikely and not the focus of U.S. BMD. As the 
President has made clear, both Russia and China are important partners 
for the future, and the United States seeks to continue building 
collaborative and cooperative relationships with them.''
    How is the Administration doing building a ``collaborative and 
cooperative relationship'' with Russia, in particular? If Russia 
attacked our forces in Europe with its short- and medium-range 
ballistic missiles, would we not use our missile defense capabilities 
against it?
    Mr. McKeon. Much has changed since 2010, and Russia's unlawful 
actions in Crimea and its actions in eastern Ukraine have significantly 
altered the level of U.S.-Russian engagement. Working closely with 
Europe and other partners and Allies, the Administration has imposed 
real costs on Russia for its aggressive actions. The Department of 
Defense halted defense and military cooperation with Russia. The 
Administration has also prohibited exports of sensitive technologies 
that could be used in Russia's military modernization and has imposed 
blocking sanctions on 18 Russian defense technology firms. I do not 
want to speculate in an unclassified response about measures the United 
States would take in response to an attack on our forces in Europe; 
suffice it to say the United States would respond.
    Mr. Rogers. Please explain why we use missile defense to defend 
American aircraft carriers from China's ballistic missiles, but, we 
won't plan to use our missile defenses to defend American cities?
    Mr. McKeon. The U.S. fields a missile defense system for the 
homeland to counter the projected threats from North Korea and Iran. 
While the Ground-based Midcourse Defense (GMD) system would be employed 
to defend the United States against limited missile launches from any 
source, it does not have the capacity to cope with large scale Russian 
or Chinese missile attacks and is not intended to affect the strategic 
balance with those countries.
    Mr. Rogers. As you know, U.S. Missile Defense spending is limited. 
At the same time, our allies are significantly investing, through 
Foreign Military Sales, in U.S. missile defense systems. What is OSD-
Policy doing, in concert with the Joint Staff and COCOMs, to develop 
policies and guidance to make sure the U.S. can be fully interoperable 
and burden share with these allies?
    Mr. McKeon. In the 2010 Ballistic Missile Defense Review (BMDR), 
the Administration articulated its policy of seeking contributions from 
allies and partners. This policy has been repeated many times by high-
level U.S. officials in speeches both at home and abroad. We work 
regularly through multi-national exercises, workshops, roundtables, and 
conferences to inform officials of allied and partner governments about 
ballistic missile defense (BMD), the costs associated with BMD, and the 
value of BMD both as a deterrent and as an active defense. We also work 
to inform and educate these audiences on the benefits of 
interoperability and sharing sensor information. The Defense Security 
Cooperation Agency works closely with foreign governments on Foreign 
Military Sales cases of U.S.-manufactured missile defense systems. 
There is a robust interagency group that collaborates to facilitate 
these cases. All of these efforts are coordinated with the Joint Staff 
and the Combatant Commands.
    Mr. Rogers. I've got a question related to space. You certainly 
know the national security advantage space provides. For something as 
important as space services, do would you want to rely on the Russians 
or the Chinese to meet warfighter requirements?
    Mr. McKeon. The Department will not rely on Russia or China to meet 
U.S. national security requirements. The continuous availability of 
space capabilities and services is indispensable to the protection of 
U.S. national security. Our responsibility is to ensure that U.S. 
forces can count on receiving the advantages of space whenever and 
wherever necessary.
    Mr. Rogers. I am concerned with the Air Force's plan for space-
based weather collection that we could be headed down a similar path of 
relying on unreliable partners. Should we be designing a new satellite 
system that would require our reliance on Russian and Chinese weather 
data for our warfighter requirements?
    Mr. McKeon. The Department of Defense (DOD) does not rely on 
Russian or Chinese weather data and does not plan to rely on such data. 
At both geosynchronous orbit and low-earth orbit, DOD meets its 
requirements through a combination of our own capabilities and the 
capabilities of civil partners such as the National Oceanic and 
Atmospheric Administration and those of our allied partners, such the 
European meteorological consortium EUMETSAT and the Japan 
Meteorological Agency.
    Mr. Rogers. The Fiscal Year 2013 NDAA contains a limitation on 
international agreements concerning outer space activities. The 
specific language requires a certification that that such agreement has 
no legally-binding effect or basis for limiting the activities of the 
United States in outer space, and that such agreement is equitable, 
enhances national security, and has no militarily significant impact on 
the ability of the United States to conduct military or intelligence 
activities in space. What is the current negotiation status of any 
international agreements regarding outer space, like the Code of 
Conduct or moratorium on direct ascent ASAT tests, and do we have your 
commitment to closely adhering to the existing U.S. law governing this 
area?
    a. Are you familiar with the recent Joint Staff assessment of the 
EU Code and the impacts it found?
    b. Would any implementing guidance put in place concurrent with the 
U.S. signature on such draft of the Code disallow DOD from taking any 
actions in outer space? Would it require changes to any actions we 
could take in outer space?
    Mr. McKeon. The European Union-led process to develop an 
International Code of Conduct for Outer Space Activities (EU Code) 
should reinforce key space norms that are already U.S. Government 
standard practice, such as pre-launch notifications under the Hague 
Code of Conduct Against Ballistic Missile Proliferation, observance of 
UN Debris Mitigation Standards, and safety-of-flight practices to share 
collision warning information.
    The Department worked closely with the Department of State during 
bilateral and multilateral informal discussions on the draft EU Code, 
and will continue to do so if these discussions progress to formal 
negotiations to ensure that U.S. national security and legislative 
requirements are met.
    The Joint Staff has conducted three operational assessments of 
previous drafts of the EU Code. The findings were incorporated into the 
Department's position on the drafts, and this process will continue 
during any negotiations. If such negotiations reach a conclusion, the 
Department will conduct a final review to ensure the non-binding EU 
Code does not constrain either the development of the full range of 
space capabilities nor the ability of the United States to conduct 
necessary national security space operations.
    Mr. Rogers. During the peak years of nuclear modernization, how 
much of the DOD budget will be going towards nuclear deterrence? Is 
that an appropriate level of funding for what Secretary Hagel recently 
called ``DOD's highest priority mission''?
    Admiral Haney. USSTRATCOM assessment is consistent with the 
findings in the recent CBO report, ``Projected Costs of the U.S. 
Nuclear Forces, 2015 to 2024,'' that ``estimates the costs of the 
nuclear forces represent roughly 5 percent to 6 percent of the total 
cost of the Administration's plans for national defense for the next 10 
years.''
    The President's Budget reflects a renewed emphasis on the nuclear 
enterprise and I believe the investments entailed are appropriate to 
ensure continued long-term viability of the Nation's strategic 
deterrent force.
    However, I remain concerned continued budget uncertainty and/or a 
return to Budget Control Act (BCA) levels could very well reverse the 
momentum in the President's Budget and negatively impact both 
sustainment and the ``just in time'' modernization programs critical to 
maintaining a safe, secure and effective nuclear force.
    Mr. Rogers. Why does the United States need the long-range standoff 
weapon (LRSO)--the follow-on to the current air-launched cruise missile 
(ALCM)? What is the short, elevator speech we can bring to our fellow 
Members on the floor and constituents back home--why is this capability 
important?
    Admiral Haney. The standoff capability combined with the 
flexibility of the Air Launched Cruise Missile (ALCM) provides makes it 
a key component of the Nation's strategic deterrence strategy. The ALCM 
has provided strategic deterrence for more than 30 years and is well 
past its designed 10-year service life. Aging issues are a cause for 
concern regarding reliability, availability, and survivability of this 
crucial capability. The Long Range Standoff (LRSO) missile replaces the 
current nuclear cruise missile and addresses projected adversary 
defense developments to ensure future objectives remain achievable.
    Projected adversary air defense developments will impact confidence 
in the ALCM's future capabilities and overall mission effectiveness. 
Combined with the penetration capability of the B-2 and the future Long 
Range Strike-Bomber (LRS-B), the LRSO will allow for continued 
penetration into advancing air defenses to deny sanctuary for potential 
adversaries anywhere in the world. Additionally, improved capability 
aspects of the LRSO ensure viability of the B-52 as a standoff platform 
to the end of its service life in 2040. Ultimately, the combination of 
credible bomber, cruise missile, and gravity weapon capabilities enable 
continued operational flexibility and the ability to signal resolve to 
our adversaries.
    Mr. Rogers. Can you please outline your concerns about the Open 
Skies treaty? I'm asking for your best military advice concerning 
potential risks to U.S. national security.
    Admiral Haney. USSTRATCOM's capabilities are not significantly 
impacted by Open Skies overflights today, any more than we have been 
since the Treaty was implemented in 2002. After consultation with its 
allies, the U.S. approved certification of Russia's Electro-Optical and 
Multi-Spectral Imaging digital sensors in 2014. However, this did not 
establish a precedent for certification of any sensor/aircraft 
combination in the future. Should Russia submit a request to certify 
new Infrared and/or Synthetic Aperture Radar capabilities, it would be 
prudent to conduct further analyses of these particular sensors and 
their implications for national security. With that being said, as the 
U.S. works with Russia on a number of broader concerns, Open Skies 
continues to serve as a fundamental transparency and confidence 
building measure in support of the Euro-Atlantic alliance.
    Mr. Rogers. Do you agree with DIA Director, LTGEN Stewart who 
recently stated to the HASC, ``The Open Skies construct was designed 
for a different era. I am very concerned about how it is applied today 
and I'd love to talk about in a closed hearing.''
    Admiral Haney. When negotiations on Open Skies first began in the 
1990's the United States and NATO were completing the NATO-Russia 
Founding Act with Russia. Since that time Russia has taken actions that 
fall outside internationally accepted norms of behavior.
    While the U.S. works with Russia on a number of broader concerns, 
Open Skies continues to serve as a fundamental transparency and 
confidence building measure in support of the Euro-Atlantic alliance. 
Regarding specific Russian OST airspace restrictions (e.g., 
Kaliningrad, Moscow) I support the State Department's continuing 
dialogue with Russia and effort with other States Parties, via 
diplomatic channels, to urge Russia to address U.S. concerns.
    Mr. Rogers. As you know, U.S. Missile Defense spending is limited. 
At the same time, our allies are significantly investing, through 
Foreign Military Sales, in U.S. missile defense systems. What is OSD-
Policy doing, in concert with the Joint Staff and COCOMs, to develop 
policies and guidance to make sure the U.S. can be fully interoperable 
and burden share with these allies?
    Adm. Haney: Same question to you from a COCOM perspective.
    Admiral Haney. As threat ranges from ballistic missiles increase 
over time, the interdependencies between Combatant Commands continue to 
grow in importance. Resource constraints underscore the criticality of 
leveraging allied and partner capabilities to mitigate gaps. Allied and 
partner engagement requires a comprehensive, coordinated approach to 
facilitate advancement toward optimal Missile Defense integration. This 
includes more specific policy to enable information sharing and 
integration of allies into the regional defense architectures.
    USSTRATCOM supports the Office of the Secretary of Defense for 
Policy (OSD/P), the Joint Staff, and the Geographic Combatant Commands 
(GCCs) in working with partners and allies to resolve policy issues 
related to burden sharing and interoperability. Foreign Military Sales 
are principally a Service and MDA issue, but we have been working with 
the GCCs to look at options for planning and use of allied and partner 
systems around the world. Our largest and most successful activity is 
the ongoing 23-nation NIMBLE TITAN missile defense engagement series. 
These two-year campaigns bring partners from Europe (NATO and non-NATO 
states), the Gulf states, the Asia-Pacific region, and North America, 
together with the U.S. Department of State, OSD/P, the Joint Staff, and 
the Combatant Commands to stimulate the dialogue on many of the policy 
issues related to burden sharing and interoperability. We are currently 
in the middle of executing the NIMBLE TITAN '16 campaign, which 
culminates with a CAPSTONE event in June 2016.
    Mr. Rogers. I am concerned with the Air Force's plan for space-
based weather collection that we could be headed down a similar path of 
relying on unreliable partners. Should we be designing a new satellite 
system that would require our reliance on Russian and Chinese weather 
data for our warfighter requirements?
    Admiral Haney. Currently we are not designing a system that relies 
on Russian or Chinese data to meet warfighter requirements, nor should 
we in the near future.
    Mr. Rogers. As recently stated by the Director of the Defense 
Intelligence Agency at a HASC hearing on worldwide threats, ``the 
threat to U.S. space systems and services will increase as potential 
adversaries pursue disruptive and destructive counterspace capabilities 
. . . Chinese and Russia military leaders understand the unique 
information advantages afforded by space systems and are developing 
capabilities to deny U.S. use of space in the event of a conflict.'' 
Can you provide your perspective threat to our space systems?
    Admiral Haney. Both countries have acknowledged they are developing 
or have developed counter-space capabilities. Both countries have 
advanced directed energy capabilities that could be used to track or 
blind satellites, disrupting key operations. Based on the number and 
diversity of China's existing and developmental counterspace 
capabilities, China probably will be able to hold at risk U.S. national 
security satellites in every orbital regime in the next five to ten 
years. Russia has publically stated they are developing counterspace 
capabilities and replacing Soviet-made on-orbit ballistic missile early 
warning systems.
    Mr. Rogers. The 2010 National Space Policy states that the 
Secretary of Defense shall ``Develop capabilities, plans, and options 
to deter, defend against, and, if necessary, defeat efforts to 
interfere with or attack U.S. or allied space systems''. What is the 
priority of this responsibility for STRATCOM?
    Admiral Haney. Space-based capabilities and effects are vital to 
U.S. warfighting, homeland security, and our way of life. Our national 
security is inextricably dependent on space capabilities. Therefore, 
addressing challenges in space remains a top priority for USSTRATCOM. 
We continue to work with the entire DOD community to keep pace with 
growing threats to our space systems.
    The recently released President's Budget (PB 16) provides $4.7 
billion of additional space security investments that are essential for 
enhancing our Space Situational Awareness, updating our Command and 
Control systems, and improving our Offensive and Defensive Space 
Capabilities. Additionally, USSTRATCOM is updating all of its 
operational plans and nearing completion on a major update to our 
concept plan for space operations. These planning efforts specifically 
address defending and protecting our space capabilities in an 
increasingly contested domain.
    Mr. Rogers. Can you discuss the importance of assured access to 
space and maintaining two launch systems that are capable of delivering 
national security satellites into orbit?
    Admiral Haney. USSTRATCOM needs assured access to space to 
accomplish our UCP-assigned missions. Perturbations in the launch 
schedule place warfighting capability at risk. Multiple launch systems 
capable of delivering national security satellites into orbit increases 
our confidence that we'll have the capabilities we need when we need 
them.
    Mr. Rogers. What within the NDERG process do you feel is of value 
and what would you like to see done with this group? Are actions 
performed by the NDERG in any way duplicative with the NWC?
    Admiral Haney. The Nuclear Deterrence Enterprise Review Group 
(NDERG) is a forum for the SECDEF to understand the status of the 
Nuclear Deterrent Enterprise and associated sustainment and 
modernization programs given the importance of this strategic 
capability for our national security. This allows SECDEF the 
opportunity to interface with key stakeholders and leaders to 
synchronize efforts and hold leaders accountable for delivering a safe, 
secure, effective and credible nuclear strategic deterrent. I feel 
these forums are essential for mission success and are an effective and 
efficient process to resolve issues. It is vital that the performance 
of this critical mission continues to get this additional focus.
    The actions of the NDERG and Nuclear Weapon Council (NWC) are not 
duplicative. The NWC is a joint activity of the DOD and DOE established 
in public law. Their responsibilities are focused primarily on the 
activities supporting the Nation's nuclear weapons stockpile and 
aligning DOE bomb and warhead sustainment and modernization programs 
with complementary DOD systems and programs.
    Mr. Rogers. What is driving the requirement to modernize our 
nuclear capabilities? Is it age of our forces or the ongoing 
modernization efforts of other nuclear powers?
    Admiral Haney. Simply stated, we've deferred many programs for as 
long as possible and any additional slip could result in a loss of 
capability and increased cost. Today's complex and dangerous global 
security environment, to include the ongoing modernization efforts of 
other nuclear powers, demands that we properly sustain and modernize 
our strategic capabilities. The President's FY16 Budget strikes a 
responsible balance between national priorities and fiscal realities, 
and begins to reduce some of the risk we have accumulated because of 
deferred maintenance and sustainment as we pursue modernization. This 
budget supports my mission requirements. We cannot as a Nation afford 
to underfund these vital missions, especially given that other nations 
are modernizing their strategic capabilities. We have delayed 
investment in some of the replacement capabilities for too long and we 
must not delay these programs any further: examples Ohio Replacement 
Program, Long Range Strike Bomber, B-61 and Long Range Standoff (LRSO) 
missile, Minuteman replacement. We must have sustained resources 
dedicated in PB16 and beyond. I remain concerned that if we do not 
receive relief from the Budget Control Act, we will experience 
significant risk in providing the U.S. with the strategic capabilities 
it needs.
    Mr. Rogers. If sequestration were to return, what would your 
assessment be of the impact on sustainment and modernization of our 
nuclear forces?
    Admiral Haney. If fiscal constraints are imposed by the Budget 
Control Act, it would measurably weaken our national defense, and 
provide encouragement and momentum to America's foes. The missions that 
have the highest risk are those missions requiring strategic deterrence 
and assurance capabilities that take time to replace once they are no 
longer available. Sequestration in FY 2013 resulted in adjustments to 
our nuclear force sustainment and modernization plans to fit within the 
appropriated resources. Return of sequestration jeopardizes our ability 
to meet our national defense strategy by incurring unacceptable levels 
of risk.
    The President's Fiscal Year 2016 budget strikes a responsible 
balance between national priorities and fiscal realities, and begins to 
address accumulated risks from deferred sustainment and modernization 
programs for weapons systems and infrastructure. Budget cuts imposed by 
sequestration will cause capability gaps in the coming decade because 
there is no margin left in the timeline required to modernize our 
strategic forces before our current capabilities become unsustainable.
    Mr. Rogers. Why is a Triad of nuclear forces still necessary? What 
can we do with three legs that we can't do with one or two?
    Admiral Haney. Every day, the Triad deters potential adversaries, 
assures allies, and preserves stability with countries that pose an 
existential threat to the United States. It is the combination of 
attributes across the Triad that ensures potential adversaries 
understand they cannot escalate their way out of a failed conflict. The 
Triad imposes unacceptable costs and denies benefits of a strategic 
attack against the United States.
    The integration of warning, NC3, attribution, and nuclear forces 
provides an assured response across all postures. Our ICBM force 
promotes deterrence and stability by fielding a responsive and 
resilient capability. The Navy's SSBNs and Trident II D5 ballistic 
missiles constitute the Triad's most survivable leg. Our dual-capable 
B-52 and B-2 bombers continue to provide significant conventional 
capabilities along with flexibility and visibility. Finally, the three 
legs of the Triad provide the capability to mitigate risk caused by 
technological failure of any weapon or platform, technical advances by 
our adversaries, or significant changes in the geo-political 
environment. If the nuclear forces were reduced to a Dyad or Monad, the 
ability to deter, assure, and manage risk is significantly degraded.
    Mr. Rogers. Since the President's goal is a world free of nuclear 
weapons, why should we modernize our nuclear capabilities?
    Admiral Haney. The President also said ``So today, I state clearly 
and with conviction America's commitment to seek the peace and security 
of a world without nuclear weapons. I'm not naive. This goal will not 
be reached quickly--perhaps not in my lifetime. It will take patience 
and persistence.'' He went on to state ``Make no mistake: As long as 
these weapons exist, the United States will maintain a safe, secure and 
effective arsenal to deter any adversary, and guarantee that defense to 
our allies.''
    The U.S. has a long-standing commitment to reduce nuclear forces 
consistent with national policy and geopolitical conditions. This has 
been demonstrated by an enduring track record of arms reduction 
treaties including on-going force structure changes under the New 
Strategic Arms Reduction Treaty. However, as long as nuclear attack 
remains an existential threat, we must commit resources to ensure our 
deterrent forces remain viable and credible.
    Modernization enables incorporation of modern safety and security 
features into weapons that were designed decades ago; allows reductions 
in the number of weapons by reducing numbers and types of warheads 
(e.g., B61-12 modernization). In order to maintain strategic stability, 
the United States must retain an effective nuclear capability, 
especially in light of adversary nuclear modernization efforts.
    Mr. Rogers. Why do you need a replacement for the ALCM?
    Admiral Haney. The Air Launched Cruise Missile (ALCM) has provided 
strategic deterrence for over 30 years, but is well past its designed 
10-year service life and aging issues will begin to adversely affect 
reliability, availability, and survivability. The stand-off capability 
combined with the maximum flexibility the ALCM provides makes it a key 
component of the Nation's strategic deterrence strategy. The Long-Range 
Standoff missile (LRSO) replaces the ALCM and addresses projected 
adversary air defense developments.
    Projected adversary air defense developments will impact confidence 
in the ALCM's future capabilities and overall mission effectiveness. 
Combined with the penetration capability of the B-2 and the future Long 
Range Strike-Bomber (LRS-B), the LRSO will allow for continued 
penetration into advancing air defenses to deny sanctuary for potential 
adversaries anywhere in the world. Additionally, improved capability 
aspects of the LRSO ensure viability of the B-52 as a standoff platform 
to the end of its service life in 2040. Ultimately, the LRSO will play 
a key role in enabling continued operational flexibility and in 
ensuring the ability to signal resolve to our adversaries.
    Mr. Rogers. Can the Ohio-class be extended any further?
    Admiral Haney. No, the OHIO-class submarines cannot be extended any 
further. The submarines original life span was projected for 30 years. 
However by the ingenuity of our engineers which have examined the 
design and looked for every efficiency to extend its life, the 
submarine can remain viable and in service for 42 years. The Ohio-class 
will be the oldest class of submarine the U.S. has ever operated when 
they begin to retire in 2027. The Navy is delivering the OHIO 
Replacement SSBN ``just in time'' to prevent a critical capability gap. 
Additional replacement schedule slips will lead to a situation where 
current U.S. strategic deterrence requirements will not be met.
    Mr. Rogers. Why is there increased investment in space capabilities 
in PB16? Why is it important?
    Admiral Haney. Our potential adversaries have signaled their 
ability to conduct hostile operations in space as a natural extension 
of the terrestrial battlefield, and consider these operations essential 
to deny U.S. forces the asymmetric advantages of space. China launched 
an anti-satellite test in 2007 and July 2014. Russia has publicly 
stated it is expanding its counterspace capabilities, while in the 
possession of anti-satellite weapons and conducting anti-satellite 
research. This budget supports my mission requirements, maintains our 
asymmetric advantage in space, and protects our strategic capabilities.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
